           REDACTED – FOR PUBLIC RELEASE

            Office of the Inspector General
            U.S. Department of Justice




   A Review of ATF’s Investigation of
         Jean Baptiste Kingery




Oversight and Review Division 15-01           October 2014
           REDACTED – FOR PUBLIC RELEASE
                                   Kingery Overview


                                                                                                                                                                                                            Jun 15, 2010

                                                                                                                                                                                                            (Jun 15 - 16) Kingery is stopped by CBP while preparing to enter Mexico and CBP
                                                                                                                             Jan 26, 2010
                                                                                                                                                                                                            agents discover 114 grenade hulls, 114 fuse assemblies and more than 2000 rounds of
                                                                        Nov 2, 2009
                                                                                                                             (Jan 26 - Feb 1) ATF intercepts the 100 hand grenade                           ammunition hidden in the spare tire attached to Kingery’s vehicle. Kingery is
  Nov 1, 2008                                                           (Nov 2 - 5) ATF agents                               fuse assemblies, 4000 spring kits, and 4000 safety clips.                      interviewed by ICE agents and an ATF agent. After consulting with AUSA Hurley, the
                                                                        intercept Kingery’s delivery                         ATF agents mark the intercepted grenade components in                          agents ask Kingery to return the next morning for an additional interview and he is
  ATF learns that Jean Baptiste Kingery                                                                                                                                                                     released. The next day, Kingery appears for an additional interview and is later released
                                                                        of grenade hulls with fuse                           a manner that will allow them to be identified later. On
  purchased seven AK-47s with a day-old                                                                                                                                                                     with the understanding that he is cooperating with law enforcement. Beatty has several
                                                                        assemblies and mark them                             January 28, 2010, undercover agents deliver the marked
  Arizona driver’s license and suspects that he                                                                                                                                                             telephone calls with Kingery over the next 4 days.
                                                                        in a manner that will allow                          grenade components to the house identified as Kingery’s
  illegally purchased the weapons for someone
                                                                        them to be identified later.                         shipping address and begin 24-hour surveillance. Six
  else.
                                                                        Three days later, the                                days later, on February 1, 2010, the ATF agents end
                                                                        marked grenade hulls are                             their surveillance of Kingery. During the six-day                                                                                                                     May 5, 2011                                                Aug 31, 2011
                           Oct 23, 2009                                 delivered to Kingery’s                               surveillance operation they do not observe Kingery cross                           Jun 22, 2010
                                                                                                                                                                                                                                                                                                   New managers from the ATF-Phoenix                          Mexican authorities, with
                                                                        shipping address and ATF                             the border into Mexico from the United States.                                     Kingery is stopped while crossing the border into the United States.
                           ATF Special Agent Walter Beatty                                                                                                                                                                                                                                         Division meet with managers from the                       assistance from ATF, arrest
                                                                        conducts sporadic                                                                                                                       He is interviewed by Beatty. Beatty and an ICE agent he is working
                           receives a report from another ATF                                                                                                                                                                                                                                      U.S. Attorney’s Office. Shortly after this                 Kingery in Mexico and Kingery is
                                                                        surveillance of the house                                                                                                               with call AUSA Hurley and ask for permission to arrest Kingery on a
                           agent that Kingery has placed an order                                                                                                                                                                                                                                  meeting, AUSA Hurley is removed from                       charged with violating that
                                                                        located at the shipping                                                                                                                 complaint. Hurley refuses to charge Kingery at that time and he is
                           for 120 grenade hulls, including fuse                                                                                                                                                                                                                                   the Kingery prosecution and AUSA                           country’s organized crime laws.
                                                                        address.                                                                                                                                released. Hurley tells the agents Kingery will be indicted in the
                           assemblies, from a military surplus                                                                                                                                                                                                                                     Richard O'Connor is assigned as lead
                           store.                                                                                                                                                                               future.                                                                            prosecutor.


                Nov 2008          Dec 2008            Oct 2009         Nov 2009        Dec 2009         Jan 2010         Feb 2010            Mar 2010         Apr 2010         May 2010         Jun 2010            Jul 2010         Aug 2010         Sep 2010             Mar 2011             Apr 2011         May 2011         Jun 2011        Jul 2011         Aug 2011          Sep 2011


Oct 29, 2009                                                                                                                                                                                               Aug 30, 2010                                  Mar 20, 2011
                                                                                                                                            Feb 2, 2010                                                                                                                                                            Jun 22, 2011                              Sep 8, 2011
(Oct 29 - 30) Beatty consults with AUSAs Knowles and Hurley regarding the                                                                                                                                  Mexican soldiers detain six                   Mexican soldiers exchange gunfire with
                                                                                                                                            ATF agents in Yuma learn that Kingery had                                                                                                                              (Jun 22 - Aug 1) O'Connor and             Department of Justice
investigation and prosecution of Kingery. AUSA Knowles advises Beatty that                                                                                                                                 individuals and recover several live          members of a drug cartel. After the battle,
                                                                                                                                            multiple crossings in and out of Mexico starting                                                                                                                       his supervisor draft and edit a           management reassigns
grenade hulls are export controlled under Category IV(h) of the USML and                                                                                                                                   hand grenades, two of which                   the soldiers recover 15 live hand grenades.
                                                                                                                                            the prior evening; surveillance is restarted. The                                                                                                                      prosecution memorandum and                responsibility for prosecuting
that Kingery can be prosecuted for violating the Arms Export Control Act.                                                                                                                                  contain markings similar to those             ATF later examines the grenades and
                                                                                                                                            next day, ATF agents in the U.S. observe                                                                                                                               indictment for the Kingery case.          Kingery from the U.S.
Knowles tells Beatty that her office will not approve the illegal exportation of                                                                                                                           applied to the grenade hulls and              discover that four of them have
                                                                                                                                            Kingery driving toward the Mexican border. An                                                                                                                                                                    Attorney’s Office for the District
grenade hulls and that ATF should confiscate the grenade hulls at the border.                                                                                                                              fuse assemblies intercepted by ATF            components with markings similar to those
                                                                                                                                            ATF agent contacts a Mexican law enforcement                                                                                                                                                                     of Arizona to the U.S.
                                                                                                                                                                                                           in November 2009.                             made by ATF during the Kingery
                                                                                                                                            agent who is working with ATF and advises him                                                                                                                                                                    Attorney’s Office for the Central
                                                                                                                                                                                                                                                         investigation.
                                                                                                                                            of Kingery’s impending entry into Mexico. The                                                                                                                                                                    District of California.
                                 Jan 5, 2010
                                                                                                                                            Mexican law enforcement agent is not at the
                                                                                                                                                                                                            Sep 1, 2010
                                 (Jan 5 - 6) Beatty learns from two military surplus stores that Kingery has placed orders                  border and cannot stop Kingery. Kingery enters
                                 for 400 grenade hulls, 100 hand grenade fuse assemblies, 4000 hand grenade spring                          Mexico and is not detained or followed.                         (Early September) Beatty and ATF submit an indictment package to the U.S.
                                 kits, and 4000 hand grenade safety clips. The next day, Needles and Forcelli of ATF                                                                                        Attorney's Office containing the evidence that Beatty believes supports a
                                 meet with Arizona AUSAs Martinez and Hurley to discuss ATF's investigation of Kingery.                                                                                     criminal prosecution of Kingery for several offenses, including violations of the
                                                                                                                                                                                                            Arms Export Control Act.




                                                                                             9                                                                                                                                                                                                             10
APPENDIX A
A-1
A-2
REDACTED – FOR PUBLIC RELEASE




  The Department of Justice Office of the Inspector General
  (DOJ OIG) is a statutorily created independent entity
  whose mission is to detect and deter waste, fraud,
  abuse, and misconduct in the Department of Justice, and
  to promote economy and efficiency in the Department’s
  operations. Information may be reported to the DOJ
  OIG’s hotline at www.justice.gov/oig/hotline or
  (800) 869-4499.




           Office of the Inspector General
             U.S. Department of Justice
                 www.justice.gov/oig




REDACTED – FOR PUBLIC RELEASE
